No. 19A1035
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEPARTMENT OF JUSTICE, APPLICANT
v.
HOUSE COMMITTEE ON THE JUDICIARY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY IN SUPPORT OF APPLICATION FOR A STAY, via email and first-class mail,
postage prepaid, this 19th day of May, 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 19, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19A1035
DEPARTMENT OF JUSTICE
HOUSE COMMITTEE ON THE JUDICIARY
DOUGLAS N. LETTER
US HOUSE OF REPRESENTATIVES
OFFICE OF THE GENERAL COUNSEL
219 CANNON HOUSE OFFFICE BUILDING
WASHINGTON, DC 20515
DOUGLAS.LETTER@MAIL.HOUSE.GOV

